November 26, 2019
Via Electronic Filing
Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Miladis Salgado v. United States of America
No. 19-659

Dear Mr. Harris:
As counsel of record for Petitioner Miladis Salgado in the above-captioned case, I
am writing to grant blanket consent to the filing of amicus curiae briefs in this case,
provided the briefs are filed within the time allowed by the rules of this Court. This
consent applies without regard to the position taken or the party being supported by the
brief.
Respectfully,

Justin M. Pearson
Counsel for Petitioner

cc:

Noel J. Francisco, Counsel for Respondent
(via email: SupremeCtBriefs@USDOJ.gov)

